CERTIFICATE OF SERVICE
I, J. Bart DeLone, Chief Deputy Attorney General, do hereby certify that I have
this day served the foregoing Response in Opposition Petitioner’s Motion for
Expedited Consideration, described below as follows:
No. 20-845
IN THE SUPREME COURT OF THE UNITED STATES,
Donald J. Trump for President, Inc., Petitioner v. Kathy
Boockvar, Secretary of Pennsylvania, et al., Respondents –
Response in Opposition to Motion to Expedite
Per the Court’s April 15, 2020 Order, by electronic filing and First-Class Mail, postage
prepaid to:
1 COPY TO:

Scott S. Harris, Clerk
UNITED STATES SUPREME COURT
1 First Street, N.E.
Washington, DC 20543-0001

Per the Court’s April 15, 2020 Order, by electronic filing and email to:
Pennsylvania Supreme Court
In Re: November 3, 2020 General Election
149—MM--2020
John C. Eastman
Jeastman562@gmail.com
Counsel of Record for Petitioner
Bruce S. Marks
Marks & Sokolov, LLC
Marks@mslegal.com
Counsel for Petitioner
John Gore
Jones Day
jmgore@jonesday.com
Counsel for Respondents National Republican Congressional Committee, Republican
National Committee, and Republican Party of Pennsylvania
Regina Marie Blewitt
Joyce, Carmody & Moran, P.C.
-1-

rmb@joycecarmody.com
Counsel for Luzerne County Board of Elections
Adam Craig Bonin
adam@boninlaw.com
Counsel for Respondents Pennsylvania Alliance for Retired Americans, DNC
Services Corp., and Pennsylvania Democratic Party
Heather Lynn Bozovich
heather@bozovichlaw.com
Counsel for Respondent Clearfield County Board of Elections
Keith Adam Button
Shafer Law Firm, P.C.
kbutton@shaferlaw.com
Counsel for Respondent Crawford County Board of Elections
Thomas M. Caffrey
Lehigh County Department of Law
tcaffrey@rcn.com
Counsel for Respondent Lehigh County Board of Elections
Jonathan Paul Foster
Bradford County Commissioners
Jonathan.jr@fosterlawfirm.com
Counsel for Respondent Bradford County Board of Elections
Christopher P. Gabriel
Cafardi Ferguson Wyrick Weis & Gabriel LLC
cgabriel@cfwwg.com
Counsel for Respondents Clarion County Board of Elections and Tioga County
Board of Elections
Robert Eugene Grimm
rgrimm@co.greene.pa.us
Counsel for Respondent Greene County Board of Elections
Michele D. Hangley
Hangley, Aronchick, Segal, Pudlin & Schiller
mhangley@hangley.com
Counsel for Respondents Bucks County Board of Elections, Chester County Board of
Elections, Montgomery County Board of Elections, and Philadelphia County Board of
Elections

2

Christina Lee Hausner
Lancaster County Solicitor’s Office
chausner@co.lancaster.pa.us
Counsel for Respondent Lancaster County Board of Elections
Jennifer B. Hipp
Cumberland County Solicitor’s Office
jhipp@bogarlaw.com
Counsel for Respondent Cumberland County Board of Elections
Frank Lavery, Jr.
flavery@laverylaw.com
Counsel for Respondents Franklin County Board of Election and Perry County Board
of Election
Kenneth Richard Levitzky
krllaw@epix.net
Counsel for Respondents Sullivan County Board of Elections and Wyoming County
Board of Elections
Lori A. Martin
Wilmer Cutler Pickering Hale and Dorr LLP
lori.martin@wilmerhale.com
Counsel for Respondents Common Cause Pennsylvania, League of Women Voters of
Pennsylvania, NAACP Pennsylvania State Conference
Molly Ruth Mudd
muddfreedenberg@aol.com
Counsel for Respondent Adams County Board of Elections
Anthony Michael Pratt
Greenberg Taurig, LLP
prattam@gtlaw.com
Counsel for Respondent Dwight Evans, et al and Pennsylvania State Democratic Party
David Allen Regoli
regoli@regolilaw.com
Counsel for Respondent Westmorland County Board of Elections
Edward David Rogers
Ballard Spahr LLP
rogerse@ballardspahr.com
Counsel for Respondent Delaware County Board of Elections

3

Robert D. Schaub
Rosenn, Jenkins & Greenwald, LLP
rschaub@rjglaw.com
Counsel for Respondent Susquehanna County Board of Elections
Nathaniel Justus Schmidt
Warren County Solicitor
contact@theschmidtlawfirm.com
Counsel for Respondent Warren County Board of Elections
Thomas R. Shaffer
Glassmire & Shaffer Law Offices, P.C.
tom@410ross.com
Counsel for Respondent Potter County Board of Elections
Krista Ann M. Staley
Bapst Calland Clements and Zomnir, PC
kstaley@babstcalland.com
Counsel for Respondents Armstrong County Board of Elections, Bedford County Board
of Elections, Blair County Board of Elections, Centre County Board of Elections,
Columbia County Board of Elections, Dauphin County Board of Elections, Fayette
County Board of Elections, Huntingdon County Board of Elections, Indiana County
Board of Elections, Lackawanna County Board of Elections, Lawrence County Board
of Elections, Lebanon County Board of Elections, Montour County Board of Elections,
Northumberland County Board of Elections, Venango County Board of Elections, and
York County Board of Elections
Christine D. Steere
Deasey, Mahoney & Valentini, Ltd.
csteere@dmvlawfirm.com
Counsel for Respondent Berks County Board of Elections
Andrew Francis Szefi
George M. Janocsko
Allan Joseph Opstinick
Allegheny County Law Department
aszefi@alleghenycounty.us
gjanocsko@alleghenycounty.us
aopstnick@opsitnickslaw.com
Counsel for Allegheny County Board of Elections
Brian J. Taylor
Timothy Patrick Brennan
Richard Eugene Santee

4

Northampton County Solicitor’s Office
btaylor@northamptoncounty.org
tbrennan@northamptoncounty.org
rsantee@northamptoncounty.org
Counsel for Northampton County Board of Elections
Thomas George Wagner
Meyer Wagner Brown & Kraus
twagner@mwbklaw.com
Counsel for Elk County Board of Elections
H. William White, III
Butler County Solicitor’s Office
wwhite@co.butler.pa.us
Counsel for Butler County Board of Elections
Mark Alan Aronchick
Hangley, Aronchick, Segal, Pudlin & Schiller
maronchick@hangley.com
Counsel for Philadelphia County Board of Elections, Bucks County Board of Elections,
Chester County Board of Elections, and Montgomery County Board of Elections and
for Philadelphia County Board of Election in In Re: Canvassing Observation 30 EAP
2020
Elizabeth A. Dupuis
Babst Calland Clements & Zomnir, PC
bdupuis@babstcalland.com
Counsel for Armstrong County Board of Elections
Robert Lawrence Gawlas
Rosenn, Jenkins & Greenwald, LLP
robert.gawlas@gmail.com rgawlas@rjglaw.com
Counsel for Susquehanna County Board of Elections
Kevin Michael Greenberg
Greenberg Taurig, LLP
greenbergk@gtlaw.com
Counsel for Pennsylvania State Democratic Party & Dwight Evans, et al
Terence Martin Grugan
Elizabeth Victoria Wingfield
Ballard Spahr, LLP
grugant@ballardspahr.com
elizabethvictoriawingfield@gmail.com

5

Counsel for Delaware County Board of Elections
Sean Robert Keegan
Babst Calland Clements and Zomnir, PC
skeegan@babstcalland.com
Counsel for Armstrong County Board of Elections
Clifford B. Levine
Dentons Cohen & Grigsby, PC
clevine@cohenlaw.com
Counsel for Pennsylvania State Democratic Party & Dwight Evans, et al
Counsel for Pennsylvania State Democratic Party in In Re: Canvassing Observation
30 EAP 2020 and Counsel for James Brewster and Pennsylvania Democratic Party in
In Re: Canvass of Absentee and Mail-in Ballots of November 3, 2020 General Election
31-35 EAP 2020
Molly Elizabeth Meacham
Babst Calland Clements & Zomni, PC
mmeacham@babstcalland.com
Counsel for Armstrong County Board of Elections
Sean Alexander Mott
Adams County Solicitor’s Office
samott@adamscounty.gov
Counsel for Adams County Board of Elections
Robert Andrew Wiygul
Hangley, Aronchick, Segal, Pudlin & Schiller
rwiygul@hangley.com
Counsel for Bucks County Board of Elections, Chester County Board of Elections,
Montgomery County Board of Elections, Philadelphia County Board of Elections and
Philadelphia County Board of Elections in In the Supreme Court of Pennsylvania In
Re: Canvass of Absentee and Mail-in Ballots of November 3, 2020 General Election
31-35 EAP 2020
Kathleen Marie Kotula
Pa. Dep’t of State
kkotula@pa.gov
Counsel for Participant Pa. Dep’t of State and Participants Bureau of Commissions,
Elections & Legislation in Pennsylvania Supreme Court In Re: Canvassing
Observation 30 EAP 2020

6

Pennsylvania Supreme Court
In Re: Canvassing Observation
30 EAP 2020
Sean James McGrath
Marcel S. Pratt
Zachary Gene Strassburger
Philadelphia Law Department
Sean.james.mcgrath@gmail.com
Marcel.pratt@phila.gov
Zachary.strassburger@phila.gov
Counsel for Philadelphia County Board of Elections
Susan Mon-Yi Lin
Kairys, Rudovsky, Messing, Feinberg & Lin, LLP
slin@krlawphila.com
Counsel for Pennsylvania Democratic Party
In the Supreme Court of Pennsylvania
In Re: Cvanss of Absentee and Mail-in Ballots of Nov. 3, 2020 General Election
31-35 EAP 2020
Linda A. Kerns
Law Offices of Linda A. Kerns, LLC
linda@lindakernslaw.com
Counsel for Elizabeth Elkin
Benjamin Hirsch Field
Lydia Maureen Furst
Craig R. Gottlieb
Philadelphia Law Department
Benjamin.field@phila.gov
Lydia.furst@phila.gov
Craig.gottlieb@phila.gov
Counsel for Lisa Deeley, Philadelphia County Board of Elections, Omar Sabir & Al
Schmidt
Kathleen Marie Kotula
Pa. Dep’t of State
kkotula@pa.gov
Counsel for Bureau of Commissions, Elections and Legislation
Matthew Ian Vahey
Michael R. McDonald

7

Kahil Charles Williams
Ballard Spahr LLP
vaheym@ballardspahr.com
mcdonald@ballardspahr.com
Counsel for DNC Services Corp./Democratic National Committee
John Gracie Mackay Coit
Hangley Aronchick Segal Pudlin & Schiller
jcoit@hangley.com
Counsel for Philadelphia County Board of Elections
Frances Marie Liebenguth
Virginia Spencer Scott
Allegheny County Law Department
Frances.Liebenguth@AlleghenyCounty.US
Virginia.Scott@AlleghenyCounty.US
Counsel for Allegheny County Board of Elections
Maro Santion Attisano
Attisano & Romano, LLC
marco@arlawpitt.com
Counsel for James Brewster and the Pennsylvania Democratic Party
Matthew Hermann Haverstick
Shohin Hadizadeh Vance
Joshua John Voss
Samantha G. Zimmer
Kleinbard, LLC
mhaverstick@kleinbard.com
svance@kleinbard.com
jvoss@kleinbard.com
szimmer@kleinbard.com
Counsel for Nicole Ziccarelli
Kyle John Semroc
Dentons Cohen & Grigsby, PC
Kyle.semroc@dentons.com
Counsel for James Brewster and Pennsylvania Democratic Party
Michael James Healey
Healey Block LLC
mike@unionlawyers.net
Counsel for James Brewster and Pennsylvania Democratic Party

8

Casey David White
Burns White LLC
dbwhite@burnswhite.com
Counsel for Nicole Ziccarelli
Roy S. Moore
John A. Eidsmoe
Matthew J. Clark
Talmadge Butts
constitutionalattorneys@gmail.com
Counsel for Amici Curiae Constitutional Attorneys
Todd C. Bank
Todd C. Bank Attorney at Law P.C.
tbank@toddbanklaw.com
Counsel for Amicus Curiae Todd C. Bank
Thomas W. King, III, Esq.
Dillion, McCandless, King, Coutler & King, LLP
tking@dmkcg.com
Counsel for Amicus Curiae Pennsylvania Republican Party of Pennsylvania

s. J. Bart DeLone
J. Bart DeLone
Chief Deputy Attorney General
OFFICE OF ATTORNEY GENERAL
Appellate Litigation Section
15th Floor, Strawberry Square
Harrisburg, PA 17120
(717) 712-3818
jdelone@attorneygeneral.gov

Dated: December 30, 2020

9

